                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

 Case Number: A11070050                                                                      Page 1 of 1



                  We assessed an allegation that a university 1 allowed NSF funded researchers 2 to
          improperly care for and use animals in research studies in an apparent violation of state law. 3
          The County District Attorney4 determined that the research studies did not violate state law. Our
          conclusion is that there were no violations of the NSF awards' terms and conditions.
          Accordingly, this case is closed with no further action taken.




NSF O IG Form 2 ( 11102)
